   April 22, 2004




Defense Infrastructure
Public-Private Competition for the
Base Operating Support Functions at
Picatinny Arsenal, New Jersey
(D-2004-073)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AAA                   Army Audit Agency
ARDEC                 Armament Research Development and Engineering Center
CME                   Contract Man-year Equivalent
FAR                   Federal Acquisition Regulation
FTE                   Full-Time Equivalent
GSA                   General Services Administration
IHCE                  In-House Cost Estimate
JCWS                  Johnson Controls World Services
LOE                   Level of Effort
MEO                   Most Efficient Organization
OMB                   Office of Management and Budget
PWS                   Performance Work Statement
           Office of the Inspector General of the Department of Defense
Report No. D-2004-073                                                      April 22, 2004
   (Project No. D2003CH-0137)

        Public-Private Competition for the Base Operating Support
                Functions at Picatinny Arsenal, New Jersey

                                Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel
participating in Office of Management and Budget Circular No. A-76 cost comparisons
should read this report because it discusses lessons learned in preparing the
Government’s most efficient organization.

Allegations. The audit was performed in response to a Defense Hotline complaint
concerning the Office of Management and Budget Circular No. A-76 public-private
competition to provide base operating support functions at Picatinny Arsenal, New
Jersey. The complaint had several allegations. The audit focused on the two main
allegations. The first allegation addressed the “mind-boggling” cost difference between
the Government proposal and the contractor proposal. The second allegation stated that
the National Guard was improperly being used to perform tactical vehicle maintenance,
which the contractor was responsible for performing. Each of these allegations were
covered by our review of the performance work statement, augmentation contract work,
and information technology costs. The allegations were not substantiated. See
Appendix B for a discussion of the allegations and results of this review.

In May 1998, the Department of the Army announced its decision to perform a cost
comparison of the base operating support functions at Picatinny Arsenal, New Jersey.
The cost comparison for base operating support functions included 262 authorized
positions; civilians filled 256 of the positions. On April 17, 2002, the Armament
Research, Development, and Engineering Center announced the tentative decision to
award the contract to Johnson Controls World Services and after the appeal process, on
September 25, 2002, the contract was awarded to that contractor.

Results. The decision to award the base operating support functions to Johnson Controls
World Services was appropriate. The cost difference between the Government’s
proposal and the contractor’s proposal was supportable because the Picatinny Arsenal
A-76 study team did not effectively prepare a competitive in-house cost estimate for the
most efficient organization providing base operating support functions. As a result, the
total in-house cost estimate of $94.2 million was $32.7 million higher than the contractor
proposal of $61.5 million. The information technology area costs were overstated by
$35.5 million for the most efficient organization. The Deputy Under Secretary of
Defense (Installations and Environment) should include the following issues in lessons
learned/best practices for A-76 study teams responsible for developing the most efficient
organization and in-house cost estimate.

       •    Use a multi-tasking approach across job classifications when developing
            staffing levels for the most efficient organization.
       •   Develop most efficient organizations that coincide with the requirements
           identified in the management study.

       •   Use competitive labor rates for subcontractor support.

       •   Use a bottom-up approach in creating the organizational structure to meet the
           requirements of the performance work statement.

See the finding for details on the results and recommendation.

Management Comments. The Director, Housing and Competitive Sourcing, Office of
the Deputy Under Secretary of Defense (Installations and Environment) concurred with
the finding and recommendation and stated the lessons learned will be posted on the
“SHARE A-76!” website and linked to the final report. Additional comments are not
required. See the Finding section of the report for a discussion of management comments
and the Management Comments section of the report for the complete text of the
comments.




                                            ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                3

Finding
     Competitiveness of the Most Efficient Organization                   4

Appendixes
     A. Scope and Methodology                                            13
         Prior Coverage                                                  13
     B. Hotline Allegations                                              15
     C. Report Distribution                                              17

Management Comments
     Deputy Under Secretary of Defense (Installations and Environment)   19
Background
    The audit was performed in response to a Defense Hotline complaint concerning
    the Office of Management and Budget (OMB) Circular No. A-76 public-private
    competition to provide base operating support functions at Picatinny Arsenal,
    New Jersey. The complaint had several allegations. The audit focused on the two
    main allegations. The complaint raised concern about the “mind-boggling” cost
    difference between the Government proposal and the contractor proposal. The
    complaint also alleged that the National Guard was improperly used to perform
    tactical vehicle maintenance, which the contractor was responsible for
    performing. See Appendix B for a discussion of the allegations.

    Public-Private Competition for the Base Operating Support Functions. In
    May 1998, the Department of the Army announced the decision to perform an
    OMB Circular No. A-76 cost comparison of the base operating support functions
    at Picatinny Arsenal, New Jersey. The cost comparison is a public-private
    competition process required by the OMB Circular No. A-76 to compare the cost
    of Government performance with the cost of contract performance. The cost
    comparison for base operating support functions included 262 authorized
    positions; civilians filled 256 of the positions.

    On July 27, 2001, the Armament Research, Development, and Engineering Center
    (ARDEC) issued a solicitation requesting private sector proposals for
    performance of the base operating support functions for a 5-year period. The
    performance work statement (PWS) was segmented into five functional areas or
    business units:

           •   information technology,
           •   public works,
           •   logistics,
           •   environmental and safety, and
           •   audiovisual.

    Three offers were received, all of which were determined to be in the competitive
    range: Johnson Controls World Services (JCWS); Del-Jen, Incorporated; and
    Picatinny Technical Services. After a formal selection process, JCWS was
    selected as the best-value offer. The contracting officer then compared the total
    cost of contract performance with the total cost of in-house performance to
    determine a tentative cost comparison decision.

    On April 17, 2002, ARDEC announced the tentative decision to award the
    contract to JCWS. The adjusted total cost to contract with JCWS for the services
    was $67,195,033, approximately $27 million less than the Government’s adjusted
    offer, $94,278,202, over the 5-year period. Ten administrative appeals were
    received from affected employees and the unions. On June 17, 2002, the
    Administrative Appeals Authority denied the appeals either in their entirety or
    partially. Of the few issues that were substantiated, none resulted in changes to
    either the cost estimate or the tentative decision. On September 25, 2002,
    ARDEC awarded the contract to JCWS.



                                        1
           OMB Circular No. A-76 Guidance. ARDEC performed the cost comparison
           process for the base operating support functions in accordance with OMB
           Circular No. A-76, “Performance of Commercial Activities,” August 4, 1983
           (Revised)1. OMB Circular No. A-76 and OMB Circular No. A-76 Revised
           Supplemental Handbook, March 1996 (Revised), establish Federal policy
           regarding the performance of recurring commercial activities and set forth the
           principles and procedures for implementing OMB Circular No. A-76. The
           principles and procedures include the instructions for calculating the financial
           advantage to the Government of acquiring a service through in-house, contract, or
           interservice support agreement resources.

           DoD Guidance. DoD Directive 4100.15, “Commercial Activities Program,”
           March 10, 1989, and DoD Instruction 4100.33, “Commercial Activities Program
           Procedures,” September 9, 1985, implement OMB Circular No. A-76. On
           April 3, 2000, the Under Secretary of Defense for Acquisition and Technology,
           (now known as the Under Secretary of Defense for Acquisition, Technology, and
           Logistics) issued interim guidance to ensure DoD agencies used a consistent
           approach when performing cost comparisons2. On March 14, 2001, the Deputy
           Under Secretary of Defense (Installations) [now known as the Deputy Under
           Secretary of Defense (Installations and Environment)], issued DoD 4100.XX-M,
           “A-76 Costing Manual,” as interim guidance.

           OMB Circular No. A-76 Study Process. The August 4, 1983 (Revised), OMB
           Circular No. A-76 process, as described in the Revised Supplemental Handbook
           and on the Office of the Secretary of Defense “SHARE A-76” Web site, consists
           of several phases. During the first phase, a PWS and quality assurance plan are
           developed. After a PWS is prepared, the agency issues the requests for proposal
           or invitations for bid. A management study is conducted that determines the
           Government’s most efficient organization. Once the Government’s most efficient
           organization is determined, an in-house cost estimate (IHCE) is prepared. After
           private sector offers are evaluated and a single private sector offer is determined,
           the private sector cost proposal is compared to the IHCE and the lowest cost
           provider is selected. To preclude the Government from converting to a new
           provider for marginal estimated savings, total estimated savings must exceed a
           conversion cost differential. The conversion cost differential is equal to the lesser
           of 10 percent of the IHCE direct personnel costs or $10 million over the
           performance period.

           The OMB Circular No. A-76 administrative appeal process begins at the
           conclusion of the cost comparison. Federal employees (or their representatives)
           and contractors who submitted offers affected by the decision may appeal. An
           appeal should be submitted within 20 days of supporting documentation being
           made public. The Administrative Appeal Authority should make a final decision
           within 30 days of receiving the appeal. A private-sector offeror may then file a
           protest in accordance with the Federal Acquisition Regulation (FAR) Part 33,
           “Protests, Disputes, and Appeals,” if the offeror feels that the agency conducting
           the cost comparison did not comply with the applicable procedures.

1
    OMB made revisions to Circular A-76 and reissued the Circular on May 29, 2003.
2
    DoD rescinded this guidance on March 29, 2004.



                                                     2
Objectives
    Our overall audit objective was to review selected portions of the OMB Circular
    No. A-76 process and the decision to award the base operating support functions
    to a private contractor. Specifically, we reviewed the PWS, augmentation
    contract work, and information technology costs. We also assessed related
    performance risks. See Appendix A for a discussion of the scope and
    methodology and prior coverage.




                                        3
                    Competitiveness of the Most Efficient
                    Organization
                    The Picatinny Arsenal A-76 study team did not effectively prepare a
                    competitive IHCE for the most efficient organization providing base
                    operating support functions. This occurred because the A-76 study team:

                             •   overstated full-time equivalents (FTE) and contract man-year
                                 equivalents (CME) in the IHCE for information technology
                                 support by rounding up partial FTE and CME positions and
                                 adding additional staff,

                             •   used non-competitive General Service Administration (GSA)
                                 schedule contractor rates for information technology support,
                                 and

                             •   proposed additional staff above what the contractor proposed
                                 because the study team relied on employee surveys and
                                 subjective management decisions which seemed to place too
                                 much emphasis on existing staffing levels.

                    As a result, the total IHCE of $94.2 million was $32.7 million3 higher than
                    the contractor proposal of $61.5 million. The information technology area
                    costs were overstated by $35.5 million for the most efficient organization.


Information Technology Area Most Efficient Organization
           Development of the Most Efficient Organization. To develop the most
           efficient organization (MEO), the Picatinny A-76 study team and its contractor,
           Pricewaterhouse Coopers, conducted employee workshops. During workshops,
           employees were asked to fill out surveys on tasks that they performed during the
           year, the number of times they performed those tasks, and the time devoted to
           each task. The information received from the surveys was used by the study team
           to document the existing organization and develop a task summary that identified
           the required level of effort (LOE) for development of the MEO.

           The study team stated that the information technology area of the MEO contained
           the largest required effort and comprised 59 percent of the cost for the MEO. We
           focused our analysis on the information technology area of the MEO, because the
           information technology area comprised the majority of the costs of the MEO and
           most of the differences between the contractor proposal and the MEO stemmed
           from differences in the information technology area.


3
    The $5.7 million difference between the $32.7 million cost difference stated here and the $27 million
    stated on page 1, is attributable to the conversion cost differential required by the OMB Circular
    No. A-76.



                                                       4
    Overstatement of Information Technology Costs for the MEO. Table 1
    summarizes the $35.5 million cost difference between the MEO and the
    contractor proposal.


          Table 1. MEO Information Technology Cost Overstatement
                                                            Amount
                            Item                         (in millions)

     Overstatement of In-House Cost Estimate FTEs and CMEs            $ 8.4
     Use of GSA Schedule Contractor Rates for Information
      Technology Support                                                 8.8
     Proposed Additional Staff above Requirements or
      Contractor Levels                                                18.3
       Total                                                          $35.5




Overstatement of In-House Cost Estimate
    Overstatement of FTEs and CMEs. The study team did not effectively match
    the staffing determined from its LOE analysis with the staffing proposed in the
    MEO. As a result, the study team overstated the required staffing for the
    information technology area by 16.6 positions (10.2 FTEs and 6.4 CMEs), or
    about 18 percent. We calculated that this overstatement of the required staff in
    the MEO accounted for $8.4 million of the difference between the MEO and the
    contractor proposal.

    The study team summarized its workload analysis by position and grade to
    determine the number of FTE positions needed for the MEO. Likewise, the same
    analysis was used to derive the number of subcontractors needed. However, as
    shown by the examples in Table 2 and Table 3, the number of positions identified
    in the MEO often exceeded the LOE determinations.




                                        5
       Table 2. Examples of the Most Efficient Organization Positions
                Exceeding the Level of Effort Determinations

     Position Series                              Most Efficient           FTE
       and Grade          Level of Effort         Organization        Overstatement
      GS-0301-11              0.500                     1                 0.500
           0318-05            0.040                     1                 0.960
           0326-06*           0.069                     0                (0.069)
           0332-07*           0.297                     0                (0.297)
           0332-08*           0.023                     1                 0.978
           0334-11            2.111                     2                (0.111)
           0334-12           11.468                    12                 0.532
         0334-13               1.957                     5                 3.043
         0391-11               1.600                     2                 0.400
         0855-14               0.000                     1                 1.000
         1550-13               3.500                     5                 1.500
         1550-14               0.000                      1                1.000
         Total                21.564                     31                9.436

 *
  The one 332-08 position was added to fulfill LOE requirements for the 326-06, 332-07,
 and 332-08 positions.


The study team reviewed the examples we identified in Table 2 and provided
reasons for adjusting the staffing above the LOE determinations. A member of
the study team told us that the study team decided to add supervisors to the MEO
even though they were not identified in the LOE. They also made adjustments to
handle administrative tasks that the study team believed were necessary to
perform, even though the tasks were not identified as a requirement in the PWS.




                                          6
                  Table 3. Overstatement of CMEs Beyond
                        LOE Staffing Determinations

                                               Most Efficient      CME
                        Level of Effort        Organization     Overstatement

     Subcontractor           39.788                  46.2*         6.412
 *
  Average of CMEs proposed for total contract term



The study team told us that they increased the number of subcontractors over their
LOE determination because they relied on manager input instead of the LOE
determinations. They also believed that the MEO would win the competition and
did not want to short change the information technology area because of its
importance.

The excess of FTEs and CMEs in the MEO were due primarily to:

         •   adding FTEs and CMEs in the MEO above the LOE determined by the
             study team, and

         •   rounding fractional LOEs upward to whole numbers.

Because the LOE determinations were made as fractional FTEs and CMEs and
the MEO is staffed in whole numbers, the study team generally rounded the
number of personnel for the MEO to the next whole number or higher. The A-76
study team should have used overtime, job pooling, and reassignment of duties to
other personnel with lighter workloads to staff the information technology area to
minimize the number of personnel needed to perform the required work.




                                         7
    Cost of Overstating Staffing Levels. Table 4 shows the cumulative impact of
    the decision to include staffing levels that exceeded of the management study
    suggested LOE.


          Table 4. Management Study Suggested Level of Effort versus Most
             Efficient Organization for the Information Technology Area
                                                                      Difference

                                                            FTE/                  Amount
                                       LOE       MEO        CME       Percent    (millions)
     Government (FTEs)                 52.5      62.7       10.2       19.4        $4.9*
     Subcontractor (CMEs)              39.8      46.2        6.4       16.1         3.5

      Total                            92.3      108.9       16.6      18.0         $8.4
      *
          Includes 12-percent overhead and 0.7-percent insurance required by the OMB Circular
           No. A-76 guidance.




    The cost for the information technology area of the IHCE was based on
    108.9 FTEs and CMEs being required to perform that function. This was
    16.6 more FTEs and CMEs than was suggested by the study team’s LOE analysis
    computation of 92.3 FTEs and CMEs. This increased the MEO staffing by
    18 percent, which equated to an $8.4 million increase to the IHCE. The decision
    to include MEO FTEs and CMEs in excess of the LOE determination created a
    less competitive MEO. As a best practice in preparing the MEO, Government
    teams involved in establishing the MEO should make decisions based on the
    information identified during the management study.


Use of GSA Schedule Contractor Rates
    The IHCE included about $30 million in subcontractor costs in support of the
    MEO. The information technology area accounted for 85 percent of the
    subcontractors in the MEO. The study team elected to base its costs for
    subcontractor support on GSA schedule pricing. GSA schedule contracts are best
    suited for small acquisitions. Additionally, GSA schedule contracts are not
    competed. Therefore, using prices from GSA contracts in the MEO was not a
    sound decision. We calculated that the study team’s reliance on GSA schedule
    contract rates rather than prices from competitively awarded service contracts
    accounted for about $8.8 million of the difference between the MEO and the
    winning contractor proposal.

    GSA Schedules. Under the GSA Schedules (Multiple Award Schedules)
    Program, GSA establishes long-term Government-wide contracts with


                                                8
commercial firms to provide ordering offices with access to commercial services
and products that can be ordered directly from GSA Schedule contractors or
through the GSA Advantage! online shopping and ordering system. GSA
Schedules offer the potential benefits of shorter lead-times, lower administrative
costs, and reduced inventories, including significant opportunities for agencies to
meet small business goals, while promoting compliance with various
environmental and socioeconomic laws and regulations.

When orders are placed against a GSA Multiple Award Schedule contract, using
the procedures under FAR 8.4, “Federal Supply Schedules,” they are considered
to be issued using full-and-open competition (see FAR 6.102(d)(3)). Ordering
offices need not seek further competition, synopsize the requirement, make a
separate determination of fair and reasonable pricing, or consider small business
programs. By placing an order against a GSA Schedule contract using the
procedures in this section, the ordering office has concluded that the order
represents the best value and results in the lowest overall cost alternative
(considering price, special features, administrative costs, among other items) to
meet the needs of the Government.

Despite the advantages of using GSA contracts in certain circumstances, the
General Accounting Office has noted that because the GSA schedule contracts are
not competed, agencies need to perform additional analysis to ensure they are
receiving the best price. General Accounting Office Report 03-433, “Federal
Procurement Spending and Workforce Trends,” April 30, 2003, states:

       GSA does not require contractors to compete against one another to
       receive schedule contracts. Rather, GSA negotiates contracts,
       including pricing and other terms, with all contractors who meet the
       qualification standards for the schedule. Generally, contracting
       officers may place orders for products against the schedule without
       having to solicit competitive quotes or determine fair and reasonable
       prices, thereby allowing them to fulfill their agencies’ needs quickly
       and easily. However, for purchases above a certain threshold, it is
       advantageous for the ordering office to seek a price reduction and
       consider additional contractors. Further, for service contracts that are
       valued at more than $2,500 and require a statement of work, GSA
       established special ordering procedures under the schedules program
       that require agency personnel to solicit quotes from at least three
       contractors and evaluate the mix and price of the labor categories being
       offered, among other things.

Development of the MEO Subcontractor Rates. To develop the subcontractor
rates for the MEO, the study team asked GSA to do a comparison of all local
GSA contractor rates for the positions that existed in the information technology
area at that time. The rates came from GSA schedules from Synetics,
Incorporated; Business Plus Corporation; MTI Technology Corporation; Signal
Corporation; Artech Information Systems; and Decision Systems Technologies,
Incorporated. GSA picked three of the companies to offer three competitive rates
for each of the potential subcontractor positions to be included in the MEO and
developed an average. The study team then reduced those rates by 10 percent to



                                          9
           reflect what they believed would be potential cost savings to the Government by
           going from a combination of multiple subcontractors to a single subcontractor.

           Comparison of Subcontractor Rates Used in the MEO with Subcontractor
           Rates Derived from Competition. Even though GSA developed its proposed
           rates from multiple sources, we do not believe that derived rates are reflective of
           the rates that the command could have obtained from a competitive award. In
           hindsight, the study team would have been better suited by developing its cost
           estimates from recent competitive awards made by other Government agencies in
           the Picatinny Arsenal geographical area. To estimate the rate differences between
           the subcontractor rates proposed in the MEO and rates from a competitive
           solicitation, we compared the average subcontractor hourly rates used in the MEO
           with the hourly rates proposed by JCWS (see Table 5) and found that the GSA
           rates were about 54.8 percent higher than the JCWS hourly rates.

                         Table 5. Difference Between MEO Subcontractor Rates
                                            and JCWS Rates
             MEO Average           JCWS Average                         Percent Difference
              Hourly Rate           Hourly Rate         Rate Difference Over JCWS Rates

                     4                   4
                                                            $21.30               54.8



           We then multiplied the hourly rate difference of $21.30 times the number of
           contractor hours expected to be worked over the term of the solicitation. With
           this calculation, we determined that the use of GSA rates rather than rates derived
           from competition accounted for about $8.8 million of the difference between the
           MEO and the contractor proposal. As a best practice, study teams should avoid
           using GSA schedule prices for pricing of subcontractor services.


Excess Staff Proposed
           The MEO for the information technology area proposed 108.9 FTEs and CMEs.
           The successful contractor proposed 4 CMEs. This is more than a 4-to-one ratio of
           staff for the given PWS. We determined that 16.6 of the 108.9 were attributable
           to rounding up the LOE required. The remaining difference between the MEO
           and contractor proposal was still 4 FTEs and CMEs (108.9 minus 16.6 minus 4).
           We attribute the excessive staffing to the study team basing the LOE on current
           duties instead of the PWS requirements. We calculated that the 4 FTEs and CMEs
           accounted for the remaining $18.3 million difference between the MEO proposal
           and the winning proposal from the contractor. The study team started with an “as
           was” organization developed from employee surveys, and created the MEO from
           that organization. When determining the appropriate LOE to respond to the PWS

4
    Contractor data omitted.



                                               10
    during the management study, Government teams should rely on objective
    information involving multiple sources of input as opposed to potentially affected
    employee surveys only.

    The study team tailored existing staff into the MEO, instead of starting with
    nothing and building an MEO to meet the PWS requirements. As a best practice,
    Government teams, when developing the MEO, should take a bottom-up
    requirements approach in creating the organizational structure to meet the
    requirements of the PWS, as opposed to a paring down of the existing
    organization.


Conclusion
    The Picatinny A-76 study team effort resulted in an MEO that was not
    competitive with contractor proposals, particularly in the information technology
    area. The IHCE of $94,250,373 exceeded the contractor proposal by
    $32,705,252. The information technology area costs were overstated by
    $35.5 million for the MEO. The reasons for this difference included an
    overstatement of FTEs and CMEs in the IHCE, use of GSA schedules to
    determine MEO subcontractor costs, and proposing staffing above the contractor
    level. We did not find any reason that the award of the current contract with
    JCWS should be overturned, but believe that mistakes identified here could serve
    as “lessons learned” for other OMB Circular No. A-76 study teams as required by
    OMB Circular No. A-76, “Performance of Commercial Activities,” May 29,
    2003.


Recommendation and Management Comments
    We recommend that the Deputy Under Secretary of Defense (Installations
    and Environment) include the following issues in lessons learned/best
    practices for A-76 study teams responsible for developing the most efficient
    organization and in-house cost estimate:

            1. Take a multi-tasking approach across job classifications as
    opposed to rounding up partial full-time equivalents within job
    classifications when developing staffing levels for the most efficient
    organization.

           2. Develop most efficient organizations that coincide with the
    requirements identified in the management study.

           3. Use competitive labor rates verses non-competitive General
    Services Administration schedules for subcontractor support.

           4. Use a bottom-up approach versus paring down the current
    organization in creating the organizational structure to meet the
    requirements of the performance work statement.


                                        11
Management Comments. The Director, Housing and Competitive Sourcing
concurred and stated that the lessons learned would be posted on the “SHARE
A-76!” website and linked to the final audit report.




                                  12
Appendix A. Scope and Methodology
       We reviewed pertinent documents including the PWS, the management plan,
       contract files for the winning contractor, selected portions of the solicitation,
       working papers and reports developed by the Army Audit Agency (AAA)
       pertaining to its review of the PWS and the management plan, and files from the
       Administrative Appeals Board. We interviewed the party that made the
       allegation, an auditor with the AAA that reviewed the PWS and the management
       plan, the contracting officer and contractor representatives, and members of the
       study team. We analyzed the contractor proposal and the management plan to
       identify the causes for the difference between the contractor’s proposal and the
       MEO.

       We performed this audit from July 2003 through March 2004 in according to
       generally accepted government auditing standards. We did not review the
       management control program because the audit scope was limited to the
       allegations made to the Defense Hotline.

       Use of Computer-Processed Data. DoD agencies are required to use the
       win.COMPARE2 software package when performing OMB Circular No. A-76
       cost comparison studies. We relied on cost estimates derived from the
       win.COMPARE2 software when performing our review. Office of the Inspector
       General DoD Report No. D-2001-127, “Data Reliability Assessment Review of
       win.COMPARE2 Software,” May 23, 2001, concluded that the win.COMPARE2
       software was sufficiently reliable, accurate, and in accordance with the OMB
       Circular No. A-76 Revised Supplementary Handbook and the DoD A-76 Costing
       Manual rules. Furthermore, AAA, which served as the independent review
       officer for the study, reviewed the input data. Nothing came to our attention
       during the review to cause us to question the reliability of the software.

       General Accounting Office High-Risk Area. The General Accounting Office
       has identified several high-risk areas in DoD. This report provides coverage of
       the DoD Infrastructure Management high-risk area.


Prior Coverage
       During the last 5 years, the AAA issued three reports summarizing its work as the
       independent review officer for the Picatinny Arsenal OMB Circular No. A-76
       study.

Army
       AAA Audit Report A-2002-0321-IMT, “U.S. Army Audit Agency Review of the
       Updated Cost Comparison Form for the Garrison Support Services Commercial
       Activities Study, Picatinny Arsenal, New Jersey,”
       Project Code A-2002-IMT-0246.012, April 16, 2002



                                           13
AAA Audit Report AA 02-124, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for Garrison Support
Services Commercial Activities Study,” Assignment Code T2-103P, January 8,
2002

AAA Audit Report AA 00-109, “U.S. Army Audit Agency Review of the Draft
Performance Work Statement for the Installation Operation Services Commercial
Activities Study Dated 17 August 1999,” Assignment Code T0-102M,
December 14, 1999




                                  14
Appendix B. Hotline Allegations
   Allegation No. 1. Concern was raised about the “mind-boggling” cost difference
   between the Government’s proposal and the contractor’s proposal.

   Audit Results. The allegation was not substantiated. The cost difference was
   supportable because the Picatinny Arsenal A-76 study team did not effectively
   prepare a competitive IHCE for the MEO providing base operating support
   functions. As a result, the total in-house cost estimate of $94.2 million was
   $32.7 million higher than the contractor proposal of $61.5 million. The
   information technology area costs were overstated by $35.5 million for the MEO.
   This is covered in more detail in the finding.

   Allegation No. 2. Tactical vehicle maintenance was included in the Picatinny
   A-76 PWS, the in-house proposal was calculated based on this work being
   performed by the in-house contractor workforce in the event of an in-house win.
   However, JCWS, the winning bidder, was not performing this work. Instead, the
   National Guard was performing the required work.

   Audit Results. The allegation was not substantiated. During July 2003, we met
   with the complainant and requested additional details on this allegation and other
   allegations. We were not provided with any additional support for the allegations.
   The complainant could not cite specific examples of such abuse or any details that
   would permit a more comprehensive review of this allegation.

   Tactical vehicle maintenance was a requirement of section 5.4.3 of the PWS and
   technical exhibits showed an estimated 50 tactical vehicle maintenance actions
   were expected each year. The Chief of the Contract Management Team for
   Picatinny told us that the award to JWCS resulted in one employee assigned to do
   the tactical vehicle maintenance. This was the same staffing level for tactical
   vehicle maintenance that Picatinny had before the solicitation. The Chief of the
   Contract Management Team provided us with a listing of tactical vehicle
   maintenance actions that JCWS had performed since the contract award. As of
   July 30, 2003, JCWS had already performed 91 tactical vehicle maintenance
   repairs. Based on these statistics, it was clear that JCWS had already significantly
   exceeded the expectations (50 required versus 91 accomplished) stated in the
   PWS, especially considering that the performance period had only started in
   December 2002.

   We also requested the Chief of the Contract Management Team and the Director
   of Internal Review provide us with information on any other tactical vehicle
   maintenance performed by others, other than JCWS, and information on any
   memorandums of agreement, interservice support agreements, or contracts for
   tactical vehicle maintenance support. There were no memorandums of
   agreement, interservice support agreements, or contracts for tactical vehicle
   maintenance, but there were four actions for work at Anniston Army Depot,
   Anniston, Alabama. The cost of the work at the Anniston Depot totaled $17,200.
   The Chief of the Contract Management Team told us that the work performed by
   Anniston Army Depot was for third echelon level maintenance. Third echelon
   level maintenance is defined as depot level maintenance requiring highly skilled


                                       15
personnel with unique knowledge of specific equipment. He cited the
replacement of a power pack in a Bradley M2A2 as an example of a third echelon
repair. The Chief of the Contract Management Team told us that JCWS was only
responsible for second echelon level maintenance. Second echelon maintenance
includes minor repairs such as changing track pads to rebuilding transmissions
and major engine overhauls.




                                  16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Picatinny Arsenal


Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Forces Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform


                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        18
Deputy Under Secretary of Defense
(Installations and Environment) Comments




                     19
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

David K. Steensma
Henry F. Kleinknecht
Kent E. Shaw
Stephanie N. Lay
John E. Leonard
Theresa L. Tameris
